SIDLEY AUSTIN LLP
1501 K STREET, N.W .
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8291
JGREEN@SIDLEY.COM
AMERICA  ASIA PACIFIC  EUROPE

April 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Kansas v. Boettger, No. 19-1051

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed and docketed on
February 20, 2020. On March 13, 2020, this Court granted Respondents’ motion for an extension
of time in which to file their response up to and including April 24, 2020.
Under Rule 30.4 of the Rules of this Court, Respondents Timothy C. Boettger and Ryan
R. Johnson respectfully request a 14-day extension of time, to and including May 8, 2020, within
which to file their response. Counsel for Petitioner does not oppose this extension. The
undersigned has a variety of obligations before this Court that would make it difficult to
complete the response by the current deadline. These matters include a petition for a writ of
certiorari in Ewing v. Nevada, No. 19A944, due April 23, 2020; a reply brief due in Beers v.
Barr, No. 19-864, due on April 27, 2020; and a petitioner’s brief on the merits in Jones v.
Mississippi, No. 18-1259, due on June 5, 2020.
Accordingly, Respondents respectfully request a 14-day extension of time.
Sincerely,

Jeffrey T. Green
Counsel for Respondents
cc:

Toby Crouse
Office of Attorney General Derek Schmidt
120 S.W. 10th Avenue, 2nd Floor
Topeka, KS 66612
Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

Page 2
toby.crouse@ag.ks.gov
(765) 368-6693

